WAIVER

Supreme Court of the United States

No. 20-740
dim Bognet, et al. v. Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Petitioners) (Respondents)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
- Please enter my appearance as Counsel of Record for all respondents.

& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Susquehanna County Board of Elections

 

& Iam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

 

Signature

pie ile

(Type or print) Name_Robert D. Schaub, Esquire
@ Mr. O Ms. OMrs, O Miss

Firm _Rosenn, Jenkins & Greenwald, LLP

Address_15 South Franklin Street
City & State_Wilkes-Barre, PA Zip 18711-0075

 

Phone _570-826-5652

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Nicholas Varone (nvarone@cooperkirk.com)

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
